<html>
<title> - THE PERFORMANCE OF FEDERAL CIOs: HOW DO THEY COMPARE TO CIOs IN THE PRIVATE SECTOR?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





  THE PERFORMANCE OF FEDERAL CIOs: HOW DO THEY COMPARE TO CIOs IN THE 
                            PRIVATE SECTOR?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2000

                               __________

                           Serial No. 106-174

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-507                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                         Randy Kaplan, Counsel
                           Bryan Sisk, Clerk
                    Trey Henderson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 24, 2000...................................     1
Statement of:
    Doll, Otto, commissioner, Bureau of Information and 
      Technology, State of Arizona, president, National 
      Association of State Information Resource Executives.......    34
    Flyzik, Jim, Chief Information Officer, Department of the 
      Treasury, vice chairman, CIO Council.......................    25
    Knutson, Gerald J., vice president, Communications and 
      Information Services, U.S. West............................    64
    Krupa, Suzanne, chief information officer, the Rowe Companies    70
    McClure, David L., Associate Director, Governmentwide and 
      Defense Information Systems, U.S. General Accounting Office     4
Letters, statements, et cetera, submitted for the record by:
    Doll, Otto, commissioner, Bureau of Information and 
      Technology, State of Arizona, president, National 
      Association of State Information Resource Executives, 
      prepared statement of......................................    37
    Flyzik, Jim, Chief Information Officer, Department of the 
      Treasury, vice chairman, CIO Council, prepared statement of    28
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Knutson, Gerald J., vice president, Communications and 
      Information Services, U.S. West, prepared statement of.....    66
    McClure, David L., Associate Director, Governmentwide and 
      Defense Information Systems, U.S. General Accounting 
      Office, prepared statement of..............................     7

 
  THE PERFORMANCE OF FEDERAL CIOs: HOW DO THEY COMPARE TO CIOs IN THE 
                            PRIVATE SECTOR?

                              ----------                              


                         FRIDAY, MARCH 24, 2000

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn and Turner.
    Staff present: J. Russell George, staff director and chief 
counsel; Randy Kaplan, counsel; Matt Ryan, senior policy 
director; Bonnie Heald, director of communications; Bryan Sisk, 
clerk; Ryan McKee, staff assistant; Trey Henderson, minority 
counsel; and Jean Gosa, minority assistant clerk.
    Mr. Horn. The Subcommittee on Government Management, 
Information, and Technology will come to order.
    The purpose of this hearing is to assess the effectiveness 
of Federal Government's chief information officers, the CIOs, 
in comparison to their counterparts in the public and private 
sectors.
    The Clinger-Cohen Act of 1996 required each of the major 
departments and agencies in the executive branch to appoint a 
CIO to manage the agencies' information technology programs. In 
addition, the Clinger-Cohen Act required that agencies reform 
their information technology management organizations based 
largely on the successful practices of the private sector. To 
emphasize the importance of the CIO's role in management, the 
act also required that the Federal CIOs report directly to 
agency heads.
    This morning the General Accounting Office will release a 
new executive guide entitled, ``Maximizing the Success of Chief 
Information Officers: Learning from Leading Organizations.'' 
This GAO guide acknowledges that the position of CIO in the 
Federal Government is still evolving. And, in fact, agencies 
are taking steps toward better utilizing the talents and 
leadership of their CIOs. However, the breathtaking speed of 
this information age demands an equally fast response from 
Federal agencies. From e-government and e-security to e-taxes, 
chief information officers in the private sector have provided 
the technical and managerial expertise that has successfully 
brought corporate America into an era dominated by high 
technology. The private sector knows that information 
management not only dictates how a business works, but 
increasingly defines what that business is.
    Federal CIOs must be empowered to provide the same type of 
leadership in government agencies. The Federal Government's 
senior management, the Cabinet Secretaries, agency leaders, 
their immediate staffs and the CIOs, must rise together to 
meeting the technical and management challenges that lie ahead. 
The Federal Government cannot respond to the information age in 
a stone age manner.
    We welcome our panel of witnesses, and we look forward to 
your testimony.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T8507.001
    
    Mr. Horn. Let me explain how we work here. One, we swear in 
all the witnesses.
    No. 2, we go down the line of the agenda, and automatically 
your full statement is put in the record. We would like you to 
summarize it between 5 and 8 minutes, and that permits us to 
have a lot of time for questioning and a dialog between members 
of the panel.
    So if you would stand, raise your right hands, we will 
swear you in. And anybody that is going to be whispering to 
you, put them up, too.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all five witnesses have 
affirmed the oath.
    Mr. McClure is the Associate Director for the 
Governmentwide and Defense Information Systems for the GAO.

      STATEMENT OF DAVID L. McCLURE, ASSOCIATE DIRECTOR, 
 GOVERNMENTWIDE AND DEFENSE INFORMATION SYSTEMS, U.S. GENERAL 
                       ACCOUNTING OFFICE

    Mr. McClure. Thank you, Mr. Chairman. It is a pleasure to 
be here and talk about the role of the chief information 
officer in the Federal Government and to introduce our recent 
study on maximizing the success of chief information officers. 
Your subcommittee plays a very important role in focusing both 
oversight attention and facilitating constructive dialog on 
critical information management issues in the government, and 
we are looking forward to working with you in that regard.
    Mr. Chairman, we are witnessing an unparalleled movement 
into the electronic and digital age for business and 
government. In the Federal Government, technology investments 
are paramount to realizing the programmatic results expected 
under the Results Act, to improve basic fundamental management 
and to maximize human capital skills. IT projects, as you know, 
can produce spectacular improvements in operations and 
performance if managed well. They can leave legacies of costly 
failures if managed poorly. With the spending rate for IT 
approaching $40 billion annually, we can ill-afford not to 
manage these investments with increasing scrutiny and a demand 
for tangible benefits at acceptable cost.
    The CIO positions were created by the Clinger-Cohen Act in 
1996 to tackle these issues. The progress to date is mixed and 
uneven. We certainly made a lot of progress in many areas. 
There is more interaction between Federal CIOs, program 
managers, and chief executives in the Federal agencies than in 
the past. Senior investment boards have been created and are 
being used on a consistent basis across almost all of the major 
Federal departments and agencies to make investment decisions. 
We have a very active CIO Council that has brought 
governmentwide attention to some important issues like 
security, critical infrastructure protection, IT human capital, 
and investment planning.
    The heavy involvement of the CIOs in the Y2K problem also 
helped to sensitize agency executives to the increasing role 
that technology is playing in helping to achieve their mission 
outcomes and in their daily operations. We have as a result of 
the Y2K experience a much better inventory of mission-critical 
systems in the Federal Government. However, we also have 
problem areas that continue to persist, and in our reviews of 
agencies since the Clinger-Cohen Act, we have noticed a 
consistent pattern of problems.
    There is inconsistent application of IT investment 
management across the government, and incomplete cost-benefit 
and risk data before projects are actually approved. 
Improvements are needed in software development, architecture, 
and certainly to security. These are areas where the Federal 
CIOs can certainly help make marked improvements and move the 
government forward.
    Today we are releasing our executive guide on maximizing 
the success of chief information officers. It is one in a 
series of guides that we have put out on best practices in 
information management and technology. Others have dealt with 
investment management, capital planning, security, and human 
capital, and many of these guides have formed governmentwide 
consensus on how to basically approach some of the fundamental 
IT management challenges in government.
    What I wanted to do with you today is give you some 
highlights of what we found in the study and answer any 
questions that you may have about the specifics. We have a 
chart up in the hearing room that basically outlines for you 
what we found in the study, and I just wanted to again point 
out some highlights.
    We found some critical success factors, some guiding 
principles, and some key players that are important to achieve 
success of CIOs. The first column, downward column, on the 
chart focuses on alignment and has to do with factors that are 
outside the domain of the CIO. This is an important point. In 
all of the case study organizations that we have looked at, the 
success of the CIO was heavily dependent upon executive 
management understanding, first, in the role of information 
management to the organization, and second, in figuring out the 
best positioning of the CIO in the organization structurally as 
well as the skill set that meets the organizational needs and 
problems that the company or the public sector organization is 
experiencing at that moment in time.
    There is no cookie-cutter approach to selecting a CIO. Our 
study showed that. There is a fundamental need for both 
business as well as technical skills. The key point is matching 
the right person to the organizational needs at that moment, 
and that direction coming from the executive level of the 
corporation.
    The second downward column deals with promoting 
organizational credibility, and this is, again, an important 
point to make in this regard. CIOs in these organizations 
focused on earning credibility and establishing credibility, 
and used a series of management approaches to do so. They 
managed to put in standards, processes, and basic approaches 
that consistently followed industry standards for good IT 
management. They were constantly focused on results, and 
balancing both short-term results with a need to show long-term 
improvement. The need for short-term results was critical for 
the CIOs to be able to establish their credibility record and 
to partner effectively with the business side of the 
organization.
    In the third column are our execution responsibilities. 
Once a CIO is positioned, and once he or she determines how to 
build credibility through informal and formal networks, we have 
to get down to the business of implementation. Several key 
practices were notable here. First, organizing the CIO 
organization in a way that, again, provided effective services 
and products to the organization that it served. Not all of 
them were formed in the same fashion, not all of them were 
focused on the same products and service delivery, but this was 
a dialog they had to have with the business of the corporation 
before they could figure out what skill sets and what 
particular products and services were critical to achieving 
mission or programmatic outcomes.
    The last column deals with developing human capital. This 
is pressing for private and public sector. It is a competitive 
market. We noticed in the best practice organizations that we 
looked at, there was a variety of techniques used for 
attracting, retaining, and refreshing skill sets. And there 
were a variety of techniques used to motivate employees 
internally to make sure that they executed their 
responsibilities in a very, very well-conducted fashion.
    If we compare the Federal agencies to those practices, we 
find one area of commonality, and that deals with credibility-
building. We see a lot of success in the Federal CIOs in the 
last 4 years moving to use informal and formal means to 
establish credibility.
    In the other areas there is less commonality and distinct 
chart differences. Federal organizations don't go through the 
same process in which the chief executive officer along with 
the executive peers figure out what specific skills they need 
in a CIO before the selection is made. We see less interaction 
between the CIOs in the Federal Government and the executive 
management tier, and we also see less focus of the Federal CIOs 
on performance measurement both at the project level, but, more 
importantly, on the IT function itself, and how it is 
delivering value to the organization as a whole.
    So in conclusion, the study points out that there are 
indeed areas where we can learn to capitalize more on 
positioning and putting in place CIOs that can really make a 
difference. Agency leaders must help facilitate success in IT 
management. The CIOs are necessary, but alone they cannot do 
this job. They have to have top executive support. They have to 
have working partnerships with business--the business side of 
the organization, and they have to have skilled and motivated 
people to be able to pull off the vast range of 
responsibilities that they have. The CIOs themselves can 
reinforce these things, and in the years to come we should be 
looking for CIO credibility to be enhanced through attention to 
those specific areas. And progress has certainly been made, and 
it is admirable progress in the short time since the passage of 
the act.
    I will be happy to answer questions specifically about the 
guide as we move on.
    Mr. Horn. Thank you very much, Mr. McClure.
    [The prepared statement of Mr. McClure follows:]

    [GRAPHIC] [TIFF OMITTED] T8507.002
    
    [GRAPHIC] [TIFF OMITTED] T8507.003
    
    [GRAPHIC] [TIFF OMITTED] T8507.004
    
    [GRAPHIC] [TIFF OMITTED] T8507.005
    
    [GRAPHIC] [TIFF OMITTED] T8507.006
    
    [GRAPHIC] [TIFF OMITTED] T8507.007
    
    [GRAPHIC] [TIFF OMITTED] T8507.008
    
    [GRAPHIC] [TIFF OMITTED] T8507.009
    
    [GRAPHIC] [TIFF OMITTED] T8507.010
    
    [GRAPHIC] [TIFF OMITTED] T8507.011
    
    [GRAPHIC] [TIFF OMITTED] T8507.012
    
    [GRAPHIC] [TIFF OMITTED] T8507.013
    
    [GRAPHIC] [TIFF OMITTED] T8507.014
    
    [GRAPHIC] [TIFF OMITTED] T8507.015
    
    [GRAPHIC] [TIFF OMITTED] T8507.016
    
    [GRAPHIC] [TIFF OMITTED] T8507.017
    
    [GRAPHIC] [TIFF OMITTED] T8507.018
    
    [GRAPHIC] [TIFF OMITTED] T8507.019
    
    Mr. Horn. The document that I have been thumbing my fingers 
through looks like a very thorough job, and I believe you might 
have a best-seller at the Government Printing Office.
    Next is Mr. Jim Flyzik, Chief Information Officer, 
Department of the Treasury, and vice chairman of the CIO 
Council. Mr. Flyzik.

STATEMENT OF JIM FLYZIK, CHIEF INFORMATION OFFICER, DEPARTMENT 
          OF THE TREASURY, VICE CHAIRMAN, CIO COUNCIL

    Mr. Flyzik. Mr. Chairman and members of the subcommittee, I 
appreciate the opportunity to discuss the role of the chief 
information officer in the public and private sectors. First I 
want to thank the chairman and other members of this 
subcommittee for your continued support and encouragement 
toward the improvement of information technology performance 
and accountability in the Federal Government.
    As many of you know, I serve as the Deputy Assistant 
Secretary for Information Systems and Chief Information Officer 
for the Treasury Department. In this role I recognize I provide 
strategic direction and oversight for all information 
technology programs within the Treasury Department and its 14 
bureaus. Since February 1998, I have served as the vice chair 
of the Federal CIO Council, where I play a key role in the 
strategic direction of the Council and the Federal Government's 
use of information technology.
    Today I would like to focus my comments on three issues: 
the evolution of the CIO in the Federal Government, some 
differences between the public and private sector CIO roles, 
and key challenges facing Federal CIOs.
    The role of the CIO in public sector is evolving through 
various stages. In the first stage the role was ill-defined, 
and the CIO was thought of as a technician and then perhaps as 
an adjunct to the CFO. As a result of the Clinger-Cohen Act, 
the work of the Federal CIO Council, the growth of the 
Internet, e-commerce, and the success in addressing the Y2K 
problem, the CIO is now progressing toward a business partner 
and a peer with senior management.
    CIOs were able to demonstrate their value and the value of 
technology to their organizations while addressing the serious 
issues involved with Y2K. In the private sector many CIOs have 
evolved into a chief technology officer, working side by side 
with the CEO, as evidenced by the many dot-com organizations. 
The public sector CIO has not yet reached this level of 
influence. As my colleague, the Associate Director of the GAO, 
has testified, most business decisions today involve 
technology. The CIO should be positioned at the table with the 
CEO, chief operating officer, and CFO where he can work as a 
team with senior management. It is critical that the CIO be 
involved in agency budget and resource allocation decisions. If 
CIOs are to be held responsible and accountable for results, 
they will need the authority to influence resource decisions. 
At Treasury I am fortunate to have an excellent working 
relationship with the CFO and other senior officials, which 
allows me to be involved in all investment decisions.
    There is also a disparity from agency to agency in the 
organizational placement and authority of the CIO. Regardless 
of the organization placement, however, CIOs must demonstrate 
value and earn credibility to be effective.
    Although many of the key IT challenges within the public 
and private sector are similar, there are several areas where 
they differ. As public employees, we must abide by statutory 
and regulatory requirements unique to the Federal Government. 
We agree that these requirements are important and necessary to 
guarantee the integrity of our actions for our citizens, but we 
must also recognize that they impose restraints on our ability 
to procure products and services, recruit IT professionals, and 
quickly make resource adjustments to meet dynamic market 
priorities. Let me explain.
    The public sector cannot compensate IT professionals at the 
same level as the private sector. We are constrained in hiring 
young IT professionals at entry levels competitive with the 
private sector. The private sector can recruit based on talent 
and based on market conditions. We also have a difficult time 
justifying promotions based on specialized technical skills. 
The Federal CIO Council is working closely with the Office of 
Personnel Management to address these concerns.
    Private sector CIOs can work directly with their CEO to 
make immediate decisions on resource allocation and procurement 
priorities to meet changing market drivers. Public sector CIOs 
must plan well in advance and work through various layers of 
government to achieve such change.
    Another concern is difficulty of the government to fund 
interagency and intergovernmental IT programs. Although the 
business cases for governmentwide efforts are compelling, the 
current appropriations processes make funding such projects 
problematic. The current ``passing of the hat'' approach to 
interagency project funding is not a viable long-term solution. 
The Federal CIO Council is working with OMB, the CFO Council, 
and other governmentwide groups to identify possible strategies 
to address this matter.
    CIOs in the public sector also carry unique 
responsibilities to set information policies within their 
agencies and comply with governmentwide policies. The public 
sector CIO must find ways to reduce paperwork burdens on the 
public, adopt sound records management programs, and 
disseminate government information.
    Last, I would like to mention some challenges facing 
Federal CIOs. There have been several studies focusing on these 
challenges. I had the opportunity to participate in many of 
these studies, including the fine work done by GAO in the 
report they are releasing at this hearing today. Some 
challenges CIOs face include taking advantage of rapidly 
evolving technology to make the government more effective, 
hiring and retaining skilled IT professionals in the 
government, assuring information system security and privacy in 
preventing unauthorized system intrusions, obtaining adequate 
funding particularly for interagency and intergovernmental 
programs, and empowering the CIO as a key decisionmaker and 
ensuring that we cost-effectively apply technology through such 
processes as IT capital planning and investment management 
within the agency.
    In summary, I would like to reiterate that the position of 
the CIO is evolving in a positive direction. I believe the Y2K 
success, the Internet, e-commerce, and other industry trends 
are creating a heightened awareness of the importance of 
information technology. This heightened awareness will 
accelerate the evolution of the Federal CIO consistent with the 
experiences in the private sector. It will also result in the 
true implementation of all provisions of the Clinger-Cohen Act.
    I would like to thank the subcommittee for the support it 
has given to the work of the Federal CIO Council. Without your 
support, we would not have been able to achieve the national 
success we enjoyed with Y2K. I would also like to express my 
appreciation and commend GAO for the excellent work they are 
doing in this area. I would like to thank the members of the 
subcommittee for the opportunity to present to you this 
morning.
    Mr. Chairman, this concludes my formal remarks, and I would 
be happy to respond to questions.
    Mr. Horn. Thank you, Mr. Flyzik. That is helpful testimony 
from the firing line.
    [The prepared statement of Mr. Flyzik follows:]

    [GRAPHIC] [TIFF OMITTED] T8507.020
    
    [GRAPHIC] [TIFF OMITTED] T8507.021
    
    [GRAPHIC] [TIFF OMITTED] T8507.022
    
    [GRAPHIC] [TIFF OMITTED] T8507.023
    
    [GRAPHIC] [TIFF OMITTED] T8507.024
    
    [GRAPHIC] [TIFF OMITTED] T8507.025
    
    Mr. Horn. Next is Mr. Otto Doll, the Commissioner of the 
Bureau of Information and Technology, the State of South 
Dakota, and president of the National Association of State 
Information Resource Executives.
    Mr. Doll, we are delighted to have you with us.

STATEMENT OF OTTO DOLL, COMMISSIONER, BUREAU OF INFORMATION AND 
 TECHNOLOGY, STATE OF ARIZONA, PRESIDENT, NATIONAL ASSOCIATION 
            OF STATE INFORMATION RESOURCE EXECUTIVES

    Mr. Doll. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity this morning to 
share the State's insight into the dynamics of the CIO-Governor 
relationship that has evolved over the last few years. Public 
sector CIOs can be of vital importance to our public leaders' 
decisionmaking on matters of governance. The proper alignment 
of information technology to government programs is a key 
enabler of effective government. A CIO who can support the 
chief executive's vision, whether of a mayor, Governor or the 
President, facilitates the achievement of government's goals.
    To achieve effective use of IT, the States have been 
gravitating to CIOs reporting to the Governor. NASIRE's survey 
shows 27 CIOs currently report to a Governor, up from 8 in 
1996. A Cabinet-level reporting relationship appears critically 
important. Technology has become too important to the business 
of government today. IT is how business is delivered in 
government; therefore, the CIO must be a party to the highest 
level of business decisions. This is consistent with private 
sector's direction as shown by companies such as General 
Motors, whose CIO is at the board of directors level.
    Three variations on this CIO structure currently exist in 
State government today where the CIO reports to a Governor 
without an advisory board, to a Governor after consulting with 
an advisory board, or to a governing board and then to the 
Governor.
    NASIRE's survey also shows 29 States have some sort of 
technology commission in a supporting or oversight role. 
Separating technology from government programs seems impossible 
today.
    State CIOs are responsible for leading the Governor's 
visions and goals into action. As such, the CIO needs to 
inspire the leaders to dedicate political capital to the IT 
agenda. One powerful dynamic of IT, whether a State is driven 
by education, criminal justice, economic development or 
whatever, IT can enable any of them.
    State CIOs' scope of authority is primarily confined to the 
executive branch of government, but has expanded in many States 
to the educational systems, some into the judicial branch, and 
a few into the legislative branch. Based on objectives set by 
the Governors of the State, CIOs develop a process whereby each 
agency is learning within the constructs of their organization 
the breadth of the organizational information in a statewide 
sense while working toward these common objectives. The larger 
the enterprise view and responsibilities of the CIO, the better 
the IT solutions Government achieves.
    Functional authority of the State CIO is concentrated in 
enterprisewide hardware and software systems as opposed to the 
desktop world of personal computing, examples being 
telecommunications networks, large data processing centers, 
large information centers, data warehouses, and public access 
facilities.
    CIOs are gaining authority over IT purchasing and 
acquisitions, IT facilities, IT personnel, and office 
automation. By combining managerial and technical knowledge, 
the State CIO can contribute significantly by bringing to 
government economies and efficiencies of scale in procurement, 
interoperability of systems, elimination of duplicative 
processes, data-sharing capabilities, and security in privacy.
    State CIOs' scope of approval authority is usually 
overseeing of statewide IT plans and policies; approving 
statewide technical IT standards, rate schedules, budgets, 
personnel classifications, and salaries and resource 
acquisitions. CIOs are being asked to improve individual 
departmental IT rate schedules, personnel classifications, and 
resource acquisitions.
    Many States are considering their CIOs for operational 
control of IT assets. The CIO is then in the best position to 
ensure that IT investments are meeting the Governor's policy 
objectives. This approach matches the private sector where CIOs 
generally have budget and operational authority.
    NASIRE's survey showed that 30 State CIOs have 
responsibility in at least three of the following four 
categories: planning, policy, standards, and acquisitions. Some 
25 percent of CIOs have minimum dollar thresholds on their 
scope of authority. Successful State CIOs spend most of their 
time offering perspective, context, and direction to both 
technology and program personnel. Considering the considerable 
size and rate of growth of IT expenditures by government, the 
CIO must advocate the wise deployment and use of IT resources 
to solve business problems or to capitalize on opportunities.
    Several elements have been found to contribute to 
successful Governor-CIO approaches. Shared IT vision by both 
the Governor and CIOs sets appropriate expectations of what 
technology can and cannot do. Strong accountability begets 
trust, the capital of governance. Sufficient level of authority 
allows working across agency and jurisdictional boundaries. 
Good management skills allows the CIO to get technologists and 
program personnel to realize the IT vision. Balance of business 
and governance orientations allows appropriate use of business 
principles in a public sector context. And finally, the ability 
to function in public administration allows the CIO to be 
effective in the political and civil service spheres.
    The State CIO also cooperates with local and Federal 
authorities, often serving as the facilitator of 
multijurisdictional initiatives. Governments see the value of 
sharing information, such as law enforcement has seen for many 
years, and integrating their processes in digital government is 
enabling, as is sharing IT infrastructure such as networks. 
Having a key authority figure in the CIO allows States to 
better coordinate resources across local, State, and Federal 
Government for the complex information systems required to 
solve the governance of today.
    The Y2K issue provided unique insight on the importance of 
the CIO position in government. Y2K presented the most 
extensive IT initiative ever undertaken, with coordination 
being required between governments, businesses, and the public. 
All aspects of IT were affected. Dealing with such a massive 
project showed that we cannot rely on the stovepipe models of 
the past. Until Governors took ownership of the Y2K problem 
through their CIOs and the Federal Government took ownership 
through the President's appointment of John Koskinen, the 
proper coordination of policy and processes was not possible.
    Mr. Koskinen, in essence, served as the CIO of the Federal 
Government. He brought accountability and action to bear on the 
Y2K challenge, just as the State CIOs were doing in the States, 
as were many county and city CIOs across the country. Mr. 
Koskinen aligned the numerous Federal agencies and provided a 
single point of contact for the States, just as the State CIOs 
were providing a single point of contact between the myriad of 
State agencies and the Federal Government.
    Why not have the structure in place to deal with nationwide 
law enforcement standardization, digital government 
initiatives, digital divide solutions, et cetera? In the 
increasingly technology-reliant world we live in, the CIO 
serves as the government's information management leader and 
key strategist to the decision points facing our political 
leaders. The role of aligning technology to achieve government 
program goals has never been so crucial to effective 
government. The CIO plays an essential role for making 
information technology work for government.
    Again, I appreciate the opportunity to share our thoughts 
and look forward to your questions.
    Mr. Horn. Well, thank you very much, Mr. Doll. That is very 
helpful information.
    [The prepared statement of Mr. Doll follows:]

    [GRAPHIC] [TIFF OMITTED] T8507.026
    
    [GRAPHIC] [TIFF OMITTED] T8507.027
    
    [GRAPHIC] [TIFF OMITTED] T8507.028
    
    [GRAPHIC] [TIFF OMITTED] T8507.029
    
    [GRAPHIC] [TIFF OMITTED] T8507.030
    
    [GRAPHIC] [TIFF OMITTED] T8507.031
    
    [GRAPHIC] [TIFF OMITTED] T8507.032
    
    [GRAPHIC] [TIFF OMITTED] T8507.033
    
    [GRAPHIC] [TIFF OMITTED] T8507.034
    
    [GRAPHIC] [TIFF OMITTED] T8507.035
    
    [GRAPHIC] [TIFF OMITTED] T8507.036
    
    [GRAPHIC] [TIFF OMITTED] T8507.037
    
    [GRAPHIC] [TIFF OMITTED] T8507.038
    
    [GRAPHIC] [TIFF OMITTED] T8507.039
    
    [GRAPHIC] [TIFF OMITTED] T8507.040
    
    [GRAPHIC] [TIFF OMITTED] T8507.041
    
    [GRAPHIC] [TIFF OMITTED] T8507.042
    
    [GRAPHIC] [TIFF OMITTED] T8507.043
    
    [GRAPHIC] [TIFF OMITTED] T8507.044
    
    [GRAPHIC] [TIFF OMITTED] T8507.045
    
    [GRAPHIC] [TIFF OMITTED] T8507.046
    
    [GRAPHIC] [TIFF OMITTED] T8507.047
    
    [GRAPHIC] [TIFF OMITTED] T8507.048
    
    [GRAPHIC] [TIFF OMITTED] T8507.049
    
    [GRAPHIC] [TIFF OMITTED] T8507.050
    
    [GRAPHIC] [TIFF OMITTED] T8507.051
    
    [GRAPHIC] [TIFF OMITTED] T8507.052
    
    Mr. Horn. Next is Mr. Gerald J. Knutson, vice president, 
communications and information services, U.S. West.

STATEMENT OF GERALD J. KNUTSON, VICE PRESIDENT, COMMUNICATIONS 
              AND INFORMATION SERVICES, U.S. WEST

    Mr. Knutson. Mr. Chairman and members of the subcommittee, 
this is a unique opportunity for someone of the private sector 
to follow three distinguished gentlemen from the government 
sector in discussing this subject. I have had the opportunity 
in the past few weeks to review the GAO study, and was 
interviewed as part of an input group into the study. I had not 
really looked at it for some period of time, and then I was 
asked to prepare a written statement for this subcommittee, and 
I did do that. And then I went back and reviewed the final 
version of the document, and I was very surprised to see that 
the thoughts of the document paralleled the thoughts in my 
statement.
    Rather than being redundant with what you have heard out of 
David and out of Jim from the public sector perspective and the 
CIO perspective, which he does very well, and Otto from the 
State perspective, I really do concur with the points that they 
have highlighted and emphasized. They are extremely important 
points, and I would like to touch on four points, somewhat 
redundant, but I think they merit some further clarification.
    As was stated, the government spends about $40 billion 
annually on technology. In the private sector, we spend 
generally in the range of 5 to 10 percent of our company's 
revenue on technology investments. When we focus on spending 
these significant dollars, I think it is very, very important 
that the CIO is positioned properly. This has been the case for 
successful CIOs and successful companies in the private sector 
that the CIO does, in fact, become a significant member of the 
lead team and report directly into the CEO. That has been 
proposed, I know, in government, and it is working in various 
ways in the government, but until the CIO is recognized and 
given that authority and accountability across whatever 
organizational entity you are dealing with, it will be very 
difficult for that CIO to be successful.
    It is also important then in that process that the CIO 
participate in setting the visions for the company or the 
organization and in establishing strategies that are business-
oriented. I am assuming the business entity does, in fact, set 
strategies, and that they know what direction they are going to 
go moving forward, and that the CIO is an active participant, 
and, as a result of participating, has an ability to go back 
and create the necessary strategies and set the priorities in 
spending the very scarce dollars that are required to do the 
work in technology.
    Another area that is very important is in the area of 
partnership. There must be established a mutual trust and 
confidence level between the CIO and the members of the lead 
team, and an ability to demonstrate that the CIO and the IM 
organization is able to deliver on their commitments and to be 
responsive to the needs of the business. What I have seen many 
times in the private sector is that you don't get that sense of 
trust and confidence between what the CIO is responsible for 
and the IM organization and what the leaders of the corporation 
or the lead executives would expect.
    Another area is in sponsorship. The CIO cannot be 
successful as an entity unto himself. He is very dependent upon 
having very strong sponsorship from the business side that is 
driving the requirements, driving the priorities, providing the 
funds and the people to make it successful. In what I have 
witnessed with the government is that there is a tendency to 
throw the problem over the wall and expect the CIO to pick it 
up and run within the confines of the technology community to 
make it successful, and you don't see an equal partner that has 
skin in the action and that is really involved and committed in 
supporting and sponsoring the work. Unless you get that type of 
partnership and involvement out of your business partner, it 
will be impossible for the CIO to be successful.
    The other area is in a partnership with the leader of the 
business entity or the government agency to help set the 
priorities and determine within the constraints of the budgets 
that are established, how they want to spend the funds and get 
the work done through the assistance of the CIO. But again, 
there has got to be very strong leadership from the business 
side supporting the CIO to make that successful.
    The last thing which was mentioned by Jim, and that is just 
the nature of the government and how it operates. The 
difficulty in getting funding; oftentimes the lack of 
continuity in leadership and political appointments make it 
difficult for a CIO to be successful. You need almost 3 to 5 
years of involvement in turning things around and migrating 
legacy applications into future technology solutions. With the 
structure of the government, that becomes very difficult. 
Anything that can be done to create some continuity over the 
lifetime of that CIO, would be tremendously helpful in making 
the CIO position successful.
    With that I will be glad to answer any questions.
    Mr. Horn. Thank you very much, Mr. Knutson. We appreciate 
having you here.
    [The prepared statement of Knutson follows:]

    [GRAPHIC] [TIFF OMITTED] T8507.053
    
    [GRAPHIC] [TIFF OMITTED] T8507.054
    
    [GRAPHIC] [TIFF OMITTED] T8507.055
    
    [GRAPHIC] [TIFF OMITTED] T8507.056
    
    Mr. Horn. The next member from the private sector is Ms. 
Susan Krupa, the chief information officer of the Rowe 
Companies. You might tell us a little bit about the Rowe 
Companies. U.S. West we know about.

STATEMENT OF SUZANNE KRUPA, CHIEF INFORMATION OFFICER, THE ROWE 
                           COMPANIES

    Ms. Krupa. Thank you, Mr. Chairman and members of the 
subcommittee and the other attendees here today, for the 
opportunity to present before you my testimony of my 
experiences in the private sector as well as some of my 
experiences in the public sector.
    The Rowe Companies is a five operating subsidiary firm. We 
are largely in the area of home furnishings manufacturing, 
which consists of Rowe Furniture, Mitchell Gold, and the 
Wexford Collection, which is a case goods company.
    In some of the challenges of CIOs in trying to attract 
talent, I grapple with those same challenges, having my 
manufacturing facilities that I am charged with managing the 
staff there, both engineering and technology staff, in the 
remote areas of the country, which is difficult to attract 
talent. We also have two retail subsidiaries, which are 
Storehouse Furniture, which is a national furniture chain, and 
Home Elements, which is a mid-Atlantic/Southeast, moving into 
the Midwest, home furnishing store as well.
    In my capacity at the Rowe Companies, Mr. Chairman, Mr. 
Birnbach is the chairman of the Rowe Companies, who I report 
directly to, and I state that here in this session just to 
emphasize the importance of the role of the CIO and where they 
need to report in the organization. I have direct 
responsibilities of reporting to the board of directors on a 
monthly or quarterly basis on the status of IT initiatives. 
These are mandates within the Rowe Companies.
    In my past experience, just to emphasize that point again, 
I was the CIO of KPMG Barons Group, which is the international 
consulting firm of the U.S. Firm KPMG Peat Marwick. There I 
reported to the chairman of KPMG Barons Group. I was part of 
that executive management team, and it is critical in both 
public and private sector to have the technology position 
leveraged within the business organization.
    Mr. Birnbach has made a commitment to proactively managing 
information systems rather than continually building upon the 
current systems investments in a reactionary manner. This 
approach positioned the systems to support the growing 
requirements and strategic direction of our business. He has 
charged me with creating an environment that includes both best 
business practices and technology talent in the furniture 
industry; that is, our industry. He has required me to 
capitalize on the synergies of the operating subsidiaries as 
well as exploit the advantages that are embedded in the 
autonomy of these operating subsidiaries, much like the 
disparate agencies--looking at Mr. Doll's testimony, he has 
disparate agencies to manage within State governments that have 
their very different requirements.
    I am sure the public area of waste and waterworks, if you 
will, is very, very different than the financial offices. So I 
am charged with the responsibility of meeting with those 
business unit heads, if you will, or agency heads, in Mr. 
Doll's case, and helping them in defining their requirements 
and finding where the opportunities are that we can leverage 
technology to help drive their business forward.
    We are a service organization. Information technology is a 
service organization. The Federal Government is a service 
organization in much of what it provides to the citizens of 
this country. That defines the criticality of the chief 
information officer within the Federal Government as well as 
the private sector.
    Some of the things that we at the Rowe Companies and my 
colleagues in the industry look at are a couple of terms that I 
would like to share with you today, and I hope that we take 
away and look in the Federal Government as a passionate vision 
and mission that we should move forward with in this century. 
The speed at which today's business environment is moving and 
changing demands that information systems are not only seen as 
operational tools, but as strategic systems that are employed 
to achieve competitive advantage. And yes, there is competitive 
advantage in the Federal Government.
    In this century it is a requirement to utilize technology 
to operate a global business with speed, efficiency and 
information. In order to effectively accomplish this business 
requirement, our information system strategies must 
communicate, interface, share, and be sustainable. In looking 
forward at the dynamic and evolving picture of what business 
represents, what we do, who we are, and where we are heading, 
we must continually ask ourselves what constitutes our core 
business. With that can be a process, our intellectual capital 
or property or business design. Nonetheless, it must always be 
aligned to where the market is, and that is directly 
translatable in the Federal Government. It must be aligned to 
what the business at hand is.
    Our core business may evolve faster than we have ever 
envisioned. Therefore, it is absolutely critical that we have 
business systems that assist and facilitate the management of 
the strategic inflection points.
    The mandate of all CIOs in this century is to motivate 
change to affect the way we fundamentally do business. Yes, 
this century we will change the way we do business both in the 
public and private sector. This century clearly represents the 
speed at which change can and will occur. CIOs should be 
committed to employing strategic technologies in the next 5 
years that will define this new generation, not only in the 
private sector, more importantly in the public sector.
    We will need to in our respective industries capitalize on 
the intellectual capital of our team members who are the 
market-makers of the past century. We must exploit the 
boundlessness of the new team members that see the invisible to 
achieve what was once thought impossible. The Internet, the 
tool kits available to us today and the various technologies 
will allow us to accomplish these objectives and this vision.
    So I ask you today to empower the CIOs in the Federal 
Government to effect and motivate change as we have been 
empowered in the private sector to do so. I thank for your time 
and the opportunity to be here today. I would be happy to 
answer any questions.
    Mr. Horn. We thank you very much also.
    We are now going to begin the questioning, and I will start 
with Mr. Turner, the ranking member of the subcommittee, and if 
you have an opening statement, we will put that at the very 
beginning as if read.
    Mr. Turner will ask the questions for 10 minutes, and then 
I will take 10 minutes until we have the questions out on the 
table.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. The subject of this 
hearing is perhaps for our committee one of the most exciting 
subjects that we can discuss, because I think the utilization 
of information technology in government provides us with the 
best opportunity that we have had in the history of this 
country to reform government. The tools that can be utilized, 
that can be harnessed, will make government more efficient, 
much more cost-effective, much more consumer-friendly, and much 
more transparent and open.
    In the long term, our ability in government to use 
information technology is going to be the thing that is the 
real challenge of this century. Because if we do it 
successfully, we will increase the public's confidence in 
government, which is at an all-time low. We will be able to 
increase the accountability and the cost-effectiveness in 
government, and we will be able to provide the things by and 
large which the public demands from government.
    I understand we have 54 CIOs in Federal agencies currently, 
and I would assume, Mr. McClure, and you correct me if I'm 
wrong, that the emphasis that we have had on solving the Y2K 
problem has probably been the priority of CIOs throughout all 
of these agencies. And, of course, I guess many of these CIOs 
have not been in place for all that long, 2, maybe 3 years at 
the most, and this seems to be a critical time for this 
particular hearing because we know that the CIOs' role in 
helping solve the Y2K problem was all-consuming in many 
respects.
    Government, we all know, always works better when there is 
a crisis. I think the chairman has rightly proceeded with our 
committee to emphasize the issue of computer security, which is 
a hot topic and comes about as close to a crisis as we can talk 
about. But those of us who have served in government for a 
while know that it is always better to have a crisis to make 
things happen. I am hopeful that what we can learn from this 
hearing and the work of this committee are ways that we can 
look at information technology and its applications in 
government in a broader sense so that we can accomplish the 
goals that each of you have stated, and that is to make sure 
that chief information officers in the public sector operate 
like the successful companies in the private sector. Clearly, 
in the private sector if you are not applying information 
technology, you are falling behind; and the same is true in the 
Federal Government.
    I was interested in, Mr. Doll, and I am sure there are some 
examples of States in addition to your own that represent 
shining examples of successful implementation of information 
technology. Perhaps I can brag a little bit about the State of 
Texas, which was the leader, first in the Nation to promote the 
idea of using smartcards for electronic benefit transfer for 
the Food Stamp Program, which has saved millions of dollars, 
eliminated much fraud, and made that program much more 
accountable and efficient to ensure that those who are entitled 
to the benefits receive them.
    But in the early days of the State's efforts, from my 
experience in the State legislature, information technology 
officers or commissions, one of their first roles was to always 
review and make recommendations regarding the acquisition of 
computers and software for the various agencies so they would 
be sure that they were buying the right materials. Have we 
moved away in some of our better examples of State leadership--
have we moved away from that to the broader role of actually 
suggesting ways and encouraging and implementing information 
technology?
    Mr. Doll. Most definitely. State CIOs are more in an 
analytical view of how do you align technology to, in essence, 
digitize government as well as solve its problems. I think 
there is an inherent understanding that the more technology we 
can apply to what has in the past been a very paper-intensive, 
process-intensive organization called government, the better 
off the States will be.
    You are right, it is a very competitive environment out 
there. We are competing with each other on the State level as 
well. We kind of view ourselves much as private industry does. 
They compete with their competitors where we turn around and 
provide the best government possible to our citizens and our 
businesses within our State relative to applying technology as 
an enabler. So, yes, you will see us, whether it is South 
Dakota or whatever State, looking at how we take the 
technologies that are in existence, the ones that are on the 
horizon, and applying those to the process of governance.
    Mr. Turner. Are you in a position to have enough of an 
overview of the various States' activities to really be able to 
share with us what you think the best model is for chief 
information officer status at the State level?
    Mr. Doll. What we find in talking with my colleagues and 
the surveys that we have done, as I mentioned, we are quickly 
migrating to the chief information officer being at a Cabinet 
level; reporting directly to the Governor; having authority, at 
least from a visionary and a strategy standpoint, across all 
State government, executive branch for sure, and at times even 
over judicial and legislative branches; and we do not see that 
trend stopping. We feel that that is something that is just--in 
the future you will find all CIOs reporting to a Governor, and 
that is one thing for sure that I think is of the success 
model.
    I think the other key aspect is that the CIOs themselves 
are probably also going to get more and more responsibility 
over operational matters. Take a look at standardizing 
technology.
    I am lucky in South Dakota as the CIO because I have both 
operational and strategy. I set all standards for all State 
agencies. Most States have IT run by each of their State 
agencies, and so they have more of a coordination effort, 
whereas I have that direct line responsibility. I think that 
more States of the smaller and midlevel populationwise will be 
moving toward my model. Such States as Kentucky, that size of 
State is going to move more toward some of the operational 
responsibilities also now falling under that CIO.
    So I think those are two basic trends and what people feel 
they need to have, that level of authority, as well as have 
that level of exposure to what each of the State agency 
programs needs done, because with that level gives you access 
and input into decisionmaking about those programs.
    Mr. Turner. Mr. McClure, how does what we see going on in 
the Federal Government today match up with the models that Mr. 
Doll is talking about that he believes to be a successful model 
for CIOs?
    Mr. McClure. It has always been said that the States are 
the experimental stations for federalism, and I think what we 
see in the States is very reflective of what we see in the 
private sector. We actually spent time with the CIO in your 
State, Carolyn Purcell, a great example of a CIO focused on 
providing tremendous oversight and continuity to standards and 
to common approaches to systems being built across State 
agencies.
    In all of the States that we visited, three others in the 
study, what we found were CIOs were focused on the unique 
problems, situations and opportunities confronting State 
government. Although they are common, many of them had 
different needs at the time. In one State the CIO was charged 
with bringing spending under control and making sure that 
dollars were being spent wisely. In another State, a State CIO 
was focusing on e-government and making sure that service 
initiatives were being sent electronically. So very much in 
line with private sector models in which you will find that the 
CIO is matched for the problem and the opportunity that is 
being presented to the organization at that moment. And finding 
someone that can actually hit that problem on the head is very 
critical. There is a lot of correlation between State CIO 
models and what you see in the private sector.
    In the Federal Government we have a very mixed 
implementation with, again, the same story, but not nearly as 
much focus as we see in the States, where State CIOs are 
partnered with Governors and really participating at very high 
executive levels in decisionmaking for IT. Again, it is not 
across the board in the Federal Government. Mr. Flyzik sits in 
on some of the most important decisions made at the Treasury 
Department. He sits at the table. That is simply not uniform 
across all of the Federal agencies at this time.
    Mr. Turner. I yield back the balance of my time.
    Mr. Horn. Mr. McClure, let me pursue a couple of things 
here. Your testimony raised several challenges about Federal 
CIOs and what they face that may not be common in industry, 
including the nature of the Federal budget process, the lack of 
involvement of top management in key IT projects and human 
capital constraints.
    In your opinion, do you think we should look more toward 
what the private sector CIOs do in their entities, and try to 
make those opportunities for the Federal agencies, and 
particularly looking at the CIO management frameworks that 
would work and wouldn't work in government as to what you see 
out in the States and the major cities of America?
    Mr. McClure. I think there are some great opportunities for 
Federal CIOs to learn tools, techniques, and practices being 
used in the private sector that are clearly applicable in the 
Federal setting. I think Jim raised some very good points about 
differences in the Federal sector, that being mainly that our 
executive management levels at the Federal level are focused 
mostly on policy, less so on operations and management. We have 
a budget process that allows multiple entry points for funding 
streams to be changed. We have inflexible personnel systems 
compared to most private sector organizations. However, and I 
think Jerry will back me up on this as well, the private 
companies are faced with the same problems. There is high 
turnover in corporate executives, uncertainty in funding 
streams at many points in time, and there is a competitive 
hiring and retention market for all of us.
    So these are not insurmountable barriers for Federal CIOs. 
It just means the speed, the pace, and the direction in which 
you are going to see the reform in government might not 
parallel what you would see in the private sector.
    Mr. Horn. In your survey did you take a look to see if the 
CIOs were simply fully devoted to the CIOs? I had a problem 
about 5 years ago with a few agencies, one of which was the 
Treasury Department, where the Assistant Secretary for 
Management seemed to want to take over everything, and that is 
not what we did when we passed those laws. We want full-time 
CFOs and CIOs. They are big jobs, and they should not be 
diverted. That is why a lot of these agencies were not doing 
very well either.
    What did you find out in your survey? Do we have too many 
people under one hat, or do we get an independent CIO in the 
Federal Government?
    Mr. McClure. In the private sector and in the States, you 
see CIOs focused exclusively on IT issues. The reporting 
relationships may vary. You see CIOs in private sector 
reporting to CFOs, to the heads of the corporations. There is 
not a consistent model, but there is a clear difference.
    I think there has been tremendous improvement in the 
Federal sector in that the majority of CIOs in the Federal 
Government now are focused on IT. We have relatively few dual-
hatted or multihatted CIOs.
    Mr. Horn. How many do we have? Can we get them for the 
record?
    Mr. McClure. I think there are approximately three CIOs 
among the 24 CFO agencies that are dual-hatted where they are 
either the CFO as well as the CIO, or they have another 
significant responsibility. That is a marked improvement from 
the years prior to the Clinger-Cohen Act.
    Mr. Horn. Do you remember the three?
    Mr. McClure. I believe I can. It is at HHS, at Justice, and 
there is one other. I can provide it for the record.
    Mr. Horn. As I remember, the lowest grade that we gave in 
the Y2K exercise was the Justice Department. That might explain 
something.
    Mr. McClure. The other is Department of Defense.
    Mr. Money at Defense is a multihatted CIO.
    Mr. Horn. Maybe we are just going to have to put it in the 
appropriations bill. They will probably get the message that 
way.
    The Federal Government, would they benefit from a Federal 
CIO, and would they act in the capacity role that Mr. Koskinen 
had? He wasn't really a CIO, he was a coordinator to get the 
job done, and he did a fine job. What is the General Accounting 
Office's sort of findings in that regard?
    Mr. McClure. We have been in favor of the concept of a 
Federal CIO. When the Clinger-Cohen Act was debated in its 
early stages, we were supportive of the creation of a national 
CIO, as it was being called at that time. I think there is a 
great deal of value that can be gained from having a person 
that can focus full-time attention on IT issues across the 
agency and department lines. Continuity, direction, and 
attention to issues could be ensured by that kind of position.
    We are spoiled. We have had a unique individual named John 
Koskinen serve in that capacity when he was Deputy Director for 
Management and did an admirable job; and as the Y2K Coordinator 
another very, very stellar job.
    I think what one has to look at is what person with what 
characteristics do you want in that position? Where do you want 
the position housed? Who should that person report to, and 
where should that position be housed? There was debate in the 
early years about putting it in OMB or making the Deputy 
Director for Management in effect the national CIO. As you 
know, that person also serves, in essence, as the national CFO 
and has focused a great deal of attention on financial 
management issues.
    So there is a great deal that can be gained from it. There 
can be a great deal gained from an individual serving in that 
capacity focusing only on the most pressing IT issues, whether 
that is critical infrastructure protection, security in general 
for IT, or for electronic government. We have shown the model 
can work, particularly if it is supported by both the Congress 
and the administration.
    Mr. Horn. What are the downsides of this? Do you know what 
might be wrong about it?
    Mr. McClure. Well, I think there are always pros and cons. 
If this person does not have the support from both Congress and 
the administration, if this person cannot work across the 
organizational lines of the government effectively and is not 
empowered to make things happen, and held accountable for 
making things happen, then I think we are fooling ourselves 
about the impact. In all situations where Mr. Koskinen has 
served in that capacity, he had those traits going for him.
    Mr. Horn. Just as a matter of history, I might say the 
Deputy Director of OMB for Management didn't really do anything 
at that point. He retired. And it's a good choice when he came 
out of retirement, but while he was in that job nothing much 
was happening on the year 2000. They should have been 10 years 
ahead of that. And the danger I see with a central CIO, is 
there's a tendency in bureaucracies for the counterparts in the 
agencies to say, well, we want to be on the good side of the 
OMB or whatever and pretty soon Secretaries lose their own 
people to the center of the operation because it's very heady. 
You go over there and you're in the White House complex in a 
way and they sort of get out of sight, and I say that based on 
a lot of experience, 18 years in the biggest education system 
in this country. And that's exactly what always happened when 
you had, say, 19 to 23 campuses and you had a headquarters type 
that didn't know a campus from a headquarters frankly but he 
was the headquarters type. So you'd find your top people just 
picked off and going to nothing but meetings usually and not 
much happening. But that's what makes me a little dubious about 
how you do it on a centralized basis.
    I think the key to Mr. Koskinen was his personality. When 
we got him out of retirement, and he did a superb job, he put 
the burden on the networks the CIO counsels and others that got 
the job done rather than create a whole permanent bureaucracy 
on the subject, and I think that's why the success came there.
    Do you have anything else on the pluses and the minuses?
    Mr. McClure. I think the same issues we talked about in the 
appointment of any CIO would apply to the national CIO. There 
has to be an understanding of what that position is needed for, 
where that position would be, and how you're going to hold a 
person accountable and make it a credible position. Those are 
really key factors that if we create that position need to be 
worked out so we're again not misleading anyone about what the 
intention or the purpose of the position is.
    Mr. Horn. Mr. Doll, I understand and to the private sector 
too where a lot of measurements are being developed by CIOs and 
that fascinates me because we frankly haven't done very well at 
the Federal Government in terms of measuring things and when we 
had a hearing a few years ago, we found that in South Carolina, 
in Minnesota, in Oregon, very exciting things were occurring in 
terms of the measurement of the effectiveness of the programs. 
This town is still too oriented on simply the finance side of 
it and I think they are struggling with how do you get an 
efficiency, an effectiveness measurement.
    What can you tell us about what the private sector and what 
the States are doing in that regard because that's exactly the 
kind of information a Governor needs, a chief executive officer 
needs, and which basically we haven't really had in this town 
because it's been so fiscally oriented.
    Mr. Doll. What we find in the States is not only a drive to 
account for IT resources and how they are used, but also on the 
outcome measures and that's probably the largest area of study 
that we see the States doing right now. An example will be look 
at how people have tackled education. All the States are doing 
an awful lot with education, whether it be South Dakota, and 
the fact that we measure not how many schools are connected to 
the Internet but how many simultaneous teachers, 
administrators, and students can be on-line, not just 
technology. So one thing that we find is that we still have to 
rely on measurements that may be taking place today at a 
programmatic level but ensuring that from the technology 
standpoint, we also have our set of measures that we're 
starting to drive those metrics into some of the base 
established metrics of our programs and that starts to give 
Governors a real view what are we getting for our money and 
also just how quickly are we evolving because we all understand 
unfortunately you cannot do these things overnight usually and 
that adoption and adaption of technology, whether it be by a 
citizen, a schoolchild, whomever, takes time. And so what we 
look for is the base measurements so that Kentucky, South 
Dakota, as I mentioned, Texas, even--I've seen some examples in 
California, Minnesota, Michigan, ones that I'm familiar with 
are really driving to metrics that allow people to understand 
when they make a decision, what's the impact. And that 
ultimately drives a lot of future decisions.
    Mr. Horn. Mr. Doll, has your association, the National 
Association of State Information Resource Executives, have they 
put out any compilation of these measurements? It seems to me 
you would have a best seller there. That's what people are 
searching for.
    Mr. Doll. We haven't to date. What we have established is 
we have an organization, and I know the acronym. It's SITC and 
I forget what is stands for. It's a State information 
technology consortium which is tackling those issues. They 
started with risk management and now they've moved into metrics 
and maybe through that effort we're going to be able to compile 
what's--and maybe even do case studies of what's working in the 
States. But at this point unfortunately I'm not able to give 
you a document.
    Mr. Horn. How about it, Mr. Knutson and Ms. Krupa, what do 
you feel on measurement standards besides the finance one?
    Mr. Knutson. We struggled over time to come up with 
meaningful measurements in the field of technology, but I think 
over recent years we have done a very good job, been able to 
measure things that are operationally oriented and we can 
pretty much demonstrate what the impact is to the business as a 
result of our success with those measurements. Things like 
availability and response time are things that people deal with 
on a day-to-day basis in using technology. The one where we've 
been having more difficulty with is in the area of how well do 
we deliver programs and projects and demonstrate quality 
relative to the work that's done in those areas. Now, the thing 
that we have found to be most successful is where we've been 
able to tie measurements to impacts, to customers, to 
employees, to shareholders, things of that nature where there's 
something real tangible that you can relate to in terms of what 
your performance might do in dealing with those people.
    The other thing we have found is you can measure, measure, 
measure, but unless the measurements drive the behavior that 
you want, they are very little value. We really focus on what 
are the key measurements that drive the behaviors within the 
company and within the organization that will give us the 
outcomes that the business expects in terms of service, in 
terms of dealing with products and services and more. Most 
importantly in terms of the impact on our customers, we try to 
tie the behavior-related measurements to what will be the 
impact on our customer.
    Mr. Horn. Ms. Krupa.
    Ms. Krupa. Thank you, Mr. Chairman. One of the things that 
we have embraced and I have brought a copy of today with me 
that I will share with my colleagues in the public sector, 
traditionally in the industry, most of the metrics were based 
on our Y return on investment or cost-benefit analysis. Today 
we have a new model. It's called return on opportunity. This 
model includes not only leveraging the technology that's out 
there and taking that into consideration, there are factors of 
the human side of it.
    Mr. Doll spoke to the adaptability and adoptability of the 
citizens, whether it be a schoolchild, a schoolteacher, or the 
Governor himself in the State of South Dakota. There is that 
factor that needs to be calculated. There's a cultural shift 
that needs to be measured and taken into consideration. Some of 
the metrics we are beginning to adopt in the Rowe Companies is 
this return on opportunity because we too are in an industry 
and in an environment where we have intellectual capital and 
human capital within our organization that has been with us for 
40 plus years and sometimes it is quite difficult to take these 
individuals and bring them forward and have them adopt and 
adapt to these technological changes.
    So what we do is when we do put programs in place that help 
them adopt and adapt to these changes, we do have a metrics. 
This metrics, if I can just list off some of the things that it 
takes into consideration and it's the perfect metrics. 
Obviously everything can be improved upon for the electronic 
government or electronic business aspect of our industries 
today. It takes into consideration the decreasing of time to 
market. In translation into the Federal Government. That means 
the decrease in time it takes to deliver different and more 
quality services to the citizens within the State of the 
Federal Government. It also takes into consideration what is 
the overall value, what are the value propositions? The ROY 
really never took into consideration the value propositions, 
the ones that are the intangible, the feel good value 
propositions, which make people want to use the technology and 
leverage it in what they do every day, which clearly translates 
into reducing our operating costs both in the public and 
private sector. And I will leave copies of this. I'll make some 
copies today and ensure that my----
    Mr. Horn. Thank you. We'll put it into the record at this 
point without objection.
    Mr. Flyzik, can you tell us what the CIO Council is working 
on when it comes to measurement standards that might be ideal 
across the whole Federal Government?
    Mr. Flyzik. Mr. Chairman, I acknowledge the fact that the 
government a few years back with Governor Clinger in the 
Government Performance Results Act that we weren't accustomed 
to doing good measures and working measures, and at the time we 
did create a committee called our capital planning and 
investment committee which was to look at that very issue. As 
opposed to each independent Governor agency trying to figure 
out how to do things, we decided we'd have a committee that 
would be able to look at best practices in the private sector, 
work being done by GAO.
    The committee has been working on new types of investment 
tools that we're looking to proliferate across government to be 
able to do a better job. The tools that we've been looking at 
focus on performance measures as a first step. What do we get 
in terms of measures for the investment. I also agree quite a 
bit with Ms. Krupa's statement that we not only need to look at 
quantifiable ROYs but in government we've got other qualitative 
aspects that need to be taken into account. In the case of 
Treasury where I have law enforcement bureaus, it's very 
difficult to put a quantifiable number on what is better public 
safety or better law enforcement. We have those unique issues, 
yet we all know they are important issues to the citizens of 
the country, so we need to find ways to use these investment 
tools to standardize across government.
    We've actually worked with members of your staff in the 
past of the subcommittee on some of the capital planning tools 
that we're looking to use and perhaps proliferate across 
government to standardize in what we're doing.
    Mr. Horn. Is that very helpful? Does the GAO have any 
comments now having listened to this discussion?
    Mr. McClure. Mr. Chairman, in 1998 we put out yet another 
best practices study on this very issue, performance 
measurement for IT. I would be glad to make a copy available to 
you. It argues for using a balanced set of measures, both 
quantifiable and qualitative that looks at the impact of IT on 
strategic directions of the organization, financial, customer 
and innovation and learning. It's very much a balanced basket 
of measures. That's really what we saw industry doing. We did 
the same thing looking at private sector and four State 
governments who had also put in these kinds of balanced, 
measured approaches. We can certainly make that available to 
you and have shared that with the CIO Council and have been 
very supportive of it.
    [Note.--The GAO report entitled, ``Executive Guide, 
Measuring Performace and Demonstrating Results of Information 
Technology Investments,'' may be found in subcommittee files.]
    Mr. Horn. Thank you. My turn has long since gone and I'm 
giving Mr. Turner 20 minutes for his questioning.
    Mr. Turner. Thank you, Mr. Chairman. I have come to the 
firm conviction that we do need a Federal Chief Information 
Officer. I noted, Mr. Chairman, your concerns about the pluses 
and the minuses. There's no question that if not structured 
properly, it could be ineffective, but it does seem to me when 
we look at some of the best State models, the CIO is a cabinet 
level, and I don't mean to necessarily say that our CIO, 
Federal CIO, you'd call him a cabinet officer. That implies, as 
the chairman feared, that somehow there's a big bureaucracy 
under him because that's the nature of Secretaries at the 
Federal level. The CIO at the Federal level needs to have 
direct access to the President, and he needs to be at the table 
so that his ideas can be shared as issues of government are 
discussed. And if a Federal CIO is properly empowered, it seems 
that he would then have the ability, Mr. Flyzik, to chair that 
CIO council that you're the vice chair of and when discussions 
occur about ideas for the implementation of new technology and 
trying to move toward an e-government, then the President and 
the Federal CIO can make the decision that we're going to 
choose this particular agency as the pilot program to see if 
it's going to work.
    For example, there's no reason in the not too distant 
future that every performance-based budgeting activity of every 
Federal agency should be real time where Federal managers can 
see at any moment what the status of those performance measures 
are. Now, if that's correct, obviously the way to proceed in 
that direction is to pick out one agency and direct that agency 
to do it so we can see how it works. It seems like where we are 
today is that, Mr. Flyzik, I would gather when you meet with 
your counterparts and the CIO Council, there's probably a room 
of very frustrated people not only because they struggle with 
their role within their agencies but because there is a lot of 
good ideas floating around and somebody has got to try it but 
nobody has any direction about who is supposed to jump first.
    If we could have a CIO at the Federal level who had direct 
access to the President where these ideas could be implemented 
on a pilot basis within the Federal agencies, we'd have our 
best opportunity to see meaningful information technology 
utilized in the Federal Government.
    Am I misstating the attitude, Mr. Flyzik, of those who 
gather--I guess you meet monthly?
    Mr. Flyzik. We meet as a full council every other month. We 
have an executive committee, which I also chair, which meets 
monthly, and we have six committees based on what we have 
identified as the key subject matter, such as we've talked 
about here today, the work force effectiveness, critical 
infrastructure, security privacy and so forth. They meet in 
some cases several times per month and they have working groups 
working with them. And you make some excellent points, Mr. 
Turner, and I think it's a mixed group. There are some CIOs 
that feel that they are empowered. There are others that I 
guess the term frustrated would pertain.
    Again I believe we're evolving in a positive direction. I 
think that term empowerment is the one I've heard this morning 
over and over again, and the feeling is that we do need some 
empowerment to do, as you talk about the central authority that 
has the ability to do intergovernmental, interagency 
coordination or as you talk about a kind of an executive agency 
approach. Some feel the CIO Council can rise to that role. 
Today I believe the Council lacks some authority to control 
resources to be able to rise to that level.
    The John Koskinen model had associated with it funding that 
was set aside for that particular program with some control 
over that funding. What we do not have as a Federal CIO Council 
is authority to control funding to that degree to be able to 
effectuate the kinds of change that you are referring to. I 
agree with the chairman's remarks that those are, so to speak, 
who would determine how it is implemented.
    I was also involved with the early days of Clinger-Cohen 
working with Members up here on that and the discussion at the 
time was downsizing, streamlining. We didn't want more 
bureaucracy. We wanted to do away with layers and layers of 
authorities and so forth that we felt needed to be.
    So if implemented incorrectly, we could wind up again with 
more layers of approval processes as opposed to streamlined 
empowerment of individual agency CIOs. Nevertheless, I do agree 
with your points that we need some authority that can put in 
place the kind of things we need to do on a governmentwide 
basis because the business cases are compelling, that it makes 
sense to do that from a customer perspective.
    Mr. Turner. Mr. McClure, I'm going to ask you this 
question. We don't have anybody on our panel today from OMB but 
in my investigation into the issue of a Federal CIO, one of the 
things that comes up is that the Office of Management and 
Budget is reluctant to support this kind of approach and 
obviously it's an infringement or perceived to be an 
infringement upon their turf. Address that issue for me and 
kind of get that out on the table because obviously we pursue 
this idea. That's one of the hurdles we're going to have to 
overcome. How do you view that issue?
    Mr. McClure. Well, I think the Office of Management and 
Budget, since the passage of Clinger-Cohen, along with the key 
players that helped put that legislation together have taken 
the position that accountability for IT has definitely been 
pushed to the agencies. You remember Clinger-Cohen eliminated 
the Brooks Act model in which it was really a tail-end look at 
procurement and acquisition by a central authority and instead 
we wanted focus at the front-end for planning of IT projects.
    In that spirit, I think OMB has pushed more of the 
accountability for planning of IT and results of IT into the 
agencies, agency heads, agency CIOs and that certainly is their 
interpretation of the spirit of that legislation.
    OMB's role is very key in this whole process. OMB reviews 
agencies' IT budget submissions as part of the process of 
constructing the President's budget and using the tools that 
are available under Clinger-Cohen, which is effective data and 
analysis showing a business case, effective cost estimates, and 
some estimates of return whether it's tangible or intangible, 
and improvements are some things that OMB has a role in 
examining and asking questions about it in the formulation of 
the budget.
    So I think their push back is that the accountability model 
has shifted under Clinger-Cohen more to the agencies. They do 
recognize the role they play in reviewing agency IT submissions 
and in that regard, again they play a critical role.
    Mr. Turner. Am I correct in sharing my concern that the 
suggestion of a Federal CIO is going to at least be met with 
some skepticism by some in OMB or am I misreading that concern?
    Mr. McClure. I don't know what the current position of OMB 
is on the topic. In the past they were not supportive of it for 
many of the reasons that I stated in the discussions on the 
debate of Clinger-Cohen up on the Hill before Mr. Cohen's 
committee. So I don't know what the current position is in 
terms of favoring or disfavoring the creation of the national 
CIO.
    Mr. Turner. Well, I guess that's an issue we're going to 
have to study further, obviously if there are legitimate 
concerns that need to be taken into account. But if I'm hearing 
you correctly, it sounds to me that the responsibility has been 
moved to the agency CIOs and therefore there may be less 
interest in providing leadership from the top than there should 
be and I guess in effect for me reinforces the idea that a 
Federal CIO who is near a cabinet level official might have an 
opportunity to provide the kind of leadership the executive 
branch and the President should be providing to the 
implementation of information technology. So I'd like to work 
with you on that because I want to pursue this. Mr. Flyzik, do 
you have any thoughts to offer on this subject?
    Mr. Flyzik. As I mentioned before, the empowerment issue 
comes to mind and the need for someone or somebody or some 
group to have the empowerment to do governmentwide and 
intergovernmental kinds of programs. The Koskinen model, as we 
talked about, worked in many ways because we were viewing 
government not as by agency by agency but as functional sectors 
of our country, and I think that is something that needs to be 
done because I think there are some tremendous opportunities.
    You mentioned smart cards in Texas for food stamps, 
obviously a very, very effective program, and if you step out 
and look at government from the point of view of the customer 
of government, they don't see a Department of Treasury and a 
Department of Justice and a Department of Agriculture, nor a 
Federal, State, local. To them there is one government. 
Therefore, we have this need and let's stay with your 
entitlement example.
    Today in this country we have people receiving SSA, SSI, 
Food Stamps, Medicare, Medicaid, Aid for Family with Dependent 
Children, and so forth and so forth. They are all dealing with 
independent government processes, entities sometimes filling 
out forms redundantly over and over and over again. There is 
this need for someone or somebody, some group to begin focusing 
on what we can do from that customer point of view.
    In my mind I have the virtual department of entitlements 
coming to the forefront here. That does not mean we need to 
reorganize the government. What it means is we need to take 
advantage of the inherent infrastructure and IT capability to 
coordinate what we're doing so we can deliver that one face to 
the customer. So someone applying for one entitlement program 
finds about all the other entitlement programs that are 
available on one smart card. We not only deliver those food 
stamps but we deliver SSA, SSI, or any other entitlement 
payments.
    I think we cannot only improve service but we can probably 
eliminate a lot of fraud, waste and abuse in these programs 
because we would have better capacity to identify those kinds 
of problems. I think all of us see these kinds of activities 
and the need for again a person or a group or someone in power 
to be able to work so we can fund these intergovernmental 
approaches where I think some of the real big payoffs in the 
government's use of technology in the future will come from.
    Mr. Turner. Thank you. Mr. Doll, when you surveyed the 
States, what sector of government has been the best example of 
the utilization of information technology? For example, are we 
seeing more progress made in agency-to-agency transfer of 
information? I suppose in Texas we have on our mind of course 
the success of the food stamp program and elimination of fraud 
in it. The issuance of licenses would seem to be an area which 
would be an easy one for State government. I don't see why 
anybody anymore would have to go to any State office and get a 
driver's license renewed. You ought to be able to look forward 
to the day when you can fill out the information and take the 
visual test and at some point you ought to be able to have your 
picture made right there and have that transferred to the 
office and printed out on that card that comes back to you.
    Where are the real areas that we've seen significant 
progress in terms of the out decision of information 
technology?
    Mr. Doll. I think you find utilization of technology in a 
number of the major programs. You mentioned food stamps. The 
whole welfare arena, social services activities, most 
definitely in the financial side of government. Obviously 
that's a natural progression to technology, early adopters they 
were. So in the past I think you'd see some of those major--
where you find, though, everybody's focus, even though I can't 
say that the majority of States are there because we're not in 
the areas of digital government where any and all permits are 
on-line. You will find today of course probably any form that 
you need to fill out in most States is physically available for 
you to download, fill out, and mail in or fax or what have you, 
maybe even e-mail but a true interactive on-line association 
between the citizen and State government. That's what everyone 
is working for and that's the hottest area of development 
currently.
    You find Arizona with some of the things they've done in 
the driver's license world, some of the permits in South 
Dakota, you can get your birth certificate, a copy of that on-
line without having to talk to anybody, et cetera. Just as in 
South Dakota we're probably only down around 15, 20 percent of 
the transactions in South Dakota can be done on-line at this 
point. We have a project to turn that up to about 80, 90 
percent over the next 18 months. We just started at the 
beginning of this year.
    So I think you will find that there is a quick shift to 
again automating the processes of government so that the 
citizen can do it from home, a business can do it from work, et 
cetera.
    Mr. Turner. Thank you. Mr. McClure, give me the best 
example of a Federal agency that has utilized information 
technologies to improve its efficiency, cost effectiveness, and 
consumer friendliness. What is the best example of an agency 
that's doing that, of course present company excepted?
    Mr. McClure. It's hard to point to the best, Mr. Turner. I 
think what we have and what we continue to find are pockets of 
excellence in government, as you would expect. We've seen and 
the CIO Council is very good at every year recognizing a 
handful--when I say a handful, anywhere from a dozen to two 
dozen successful IT projects in government where there have 
been specific, tangible, and recordable outcomes of improvement 
in service delivery or cost effectiveness.
    In the last year, the Council identified many projects 
dealing with e-commerce oriented activities, buying and paying 
of services on-line, similar to what Mr. Doll was talking about 
a moment ago. There have been examples of personnel systems 
that have been enhanced to be much more user friendly and much 
more dynamic rather than the old paper processes.
    Where we really need to focus our attention in the 
government, despite these successes, are on the large, large 
modernization projects where we are spending enormous sums of 
money with high expectations, and we have several of those that 
have been ongoing for years. Many of them are beginning to turn 
around that GAO has focused on and worked now collaboratively 
with the agencies to try to improve those successes.
    Mr. Turner. What agencies are you referring to? Internal 
Revenue Service?
    Mr. McClure. Certainly TSM modernization at IRS has been a 
turnaround. The Commissioner and new CIO have put in place many 
leading practices similar to what we have talked about today. 
Again, the story is not complete but the turnaround picture is 
quite promising. Decisions are being business led. There are 
business cases. There's attention to architecture. These are 
things that in the years past we didn't pay attention to.
    The same is true in some of the other modernizations, 
including FAA and the National Weather Service, where we have 
pointed out problems in the past but we're starting to see more 
and more management attention to standards, to good software 
practices, and to adequate management attention to the project 
outcomes.
    I think those are itself areas where we need to focus a 
great deal of our attention because of the vast sums of money 
that are being spent.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Horn. Thank you, Mr. McClure, Mr. Doll, Mr. Knutson, I 
think you have flying arrangements before problems occur in the 
Midwest. If you have some parting words we'll be glad to have 
them and we'll keep the record open if on the plane you have 
nothing else to do except try to find a flight, why we'd be 
glad to put it in the record at this point without objection. 
So if you have any summation, we'd certainly welcome it.
    Mr. Knutson. The one thing I would say relative to a 
Federal level CIO is it appeared in the discussion there's a 
lot of expectation that by just naming that individual in that 
position certain things would happen. That may or may not be 
true. I think putting someone at the highest level possible in 
the area of technology is a very good decision. You can't 
assume by just doing that that the types of things that Jim was 
talking about will happen by default. You need very strong 
sponsorship from the agencies and the buy-in from those 
agencies and their willingness to give the authority to make 
things happen. Unless you have the complementary structure 
around that position from government as a whole, that position 
will not be successful.
    Mr. Horn. Mr. Doll, any parting comments?
    Mr. Doll. As I mentioned in my talk, we in the States have 
found and I believe it's a general consensus across the States 
that we looked hopefully that a national CIO will emerge in 
some form. Because we really saw the value. Year 2000 was the 
best example, but also in some of the things that are happening 
in the justice world. Security is another major concern for us 
as who do you have to go to right now. We know what it's like 
to going to all the agencies within State government. For us 
also to turn around and go from one to many within the Federal 
Government makes our lives harder, and so I would encourage you 
to consider that model because as we're moving to that model 
ourselves, I think we would say that it's been very successful 
in the States that have accomplished it and most of the States 
that are not there yet are talking or actually in the process 
of getting there and having that level of person within the 
organization.
    Finally, I'd say that that individual is not only key but 
very difficult to fill. We understand that. We get a lot of 
folks from the private industry these days into that role. And 
in my comments one of the things I mentioned was their ability 
to act within the political and civil service theater is very 
important. I come from the private sector myself even though I 
have some government service under my belt with GSA. At least I 
had exposure and some orientation to governance from that level 
and that is really key. If someone cannot operate within that 
realm, you're going to find it very, very difficult to succeed.
    Mr. Horn. One of the problems, obviously, on getting CIOs 
into the Federal Government and also at various levels is 
simply the financial situation, and what have you found in the 
private sector on that and how has that changed in the last 5 
years? A lot of good people from the Federal Government have 
left for the private sector.
    Ms. Krupa. Mr. Chairman, I myself share the same sort of 
experience as Mr. Doll. I have worked both in public and 
private sector. And one of the, I think, challenges and 
opportunities for those of us who have been in the technology 
arena for quite some time is not to jump ship, and that also 
the same challenges occur in the private sector, not to jump 
ship, if you will, from one organization to the other.
    I think, as Mr. Doll said, it is difficult but what we have 
to look for in that individual in the Federal Government, the 
person coming into that position understanding the value that 
they are going to bring to that position and not so much a 
monetary driver and there are those people out there. It is 
going to be a search.
    It is going to be somewhat difficult, but I feel there are 
those senior level executives out there. Today I think sitting 
at this table is representative of the senior level executives 
that are out there that have made commitments to their 
organizations. I agree that the position needs to be structured 
and clearly defined, but I concur there needs to be a position 
at the national level that helps define strategy and vision and 
helps go to the different agencies and different State levels 
with those CIOs and collaborate. The one thing we don't do a 
good job in this country is, and Mr. Turner has cited over and 
over again in his questions, is who is doing what is 
communicate. We don't leverage the synergies and exploit the 
successes that we have from State to State, from agency to 
agency. And the private sector has grappled with that for years 
and we're just coming into that light. We've scratched the 
surface of how important communication is.
    I have five different operating subsidiaries, and I know in 
the order of magnitude in the Federal Government, it is small 
but the model I think is important to what you're trying to 
accomplish. They each have five different requirements. I have 
VPs and director of ITs so, if you will, CIOs in those 
operating subsidiaries, so I sit in that position in the 
private sector reporting at, if you will, the cabinet level, 
the executive level to the chairman to define strategy, to 
define a vision, to define missions to capitalize on the 
synergies in these operating subsidiaries. That's what we need 
to do I believe in the Federal Government.
    Mr. Horn. That's very well said and that reminds me that we 
are going to keep the record open. If you have some more good 
ideas on the way, please ship it to the staff here and we will 
be glad to put it in the record because what we want to do is 
get people talking just as you're talking about the 
communications among levels of government and private sector 
and nonprofit sector. Universities, some of us had chief 
information officers 20 years ago, so it isn't new to a lot of 
us.
    Would the gentleman from Texas have any more questions? If 
not, we're going to thank the staff that put this together and 
that's J. Russell George, staff director and chief counsel. I 
don't see him here right now. Matt Ryan is to my left, your 
right, senior policy director on these matters, Bonnie Heald, 
director of communications, sitting in the back there. Bryan 
Sisk, clerk, Ryan McKee, staff assistant. And for the minority 
we have Trey Henderson, counsel on behalf of Mr. Turner and the 
subcommittee minority; Jean Gosa, minority clerk; and we had 
two people deciphering all of our languages today and one was 
Doreen Dotzler. The other is Laurie Harris and we thank you 
both.
    With that we're adjourned.
    [Whereupon, at 11:42 a.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
